(P"'~
 _..I'~ S&ffV.C£,,¡




(~
.~ ,~i­
>~<.-::i
  -llfVd3Q l
                      DEPARTMENT
                      DEPARTMENT OFOF IiALTH
                                   HEALTH    & HU SERVICES
                                           & IRJMAN SERVICES                                                             Office
                                                                                                                         Office of
                                                                                                                                 of Inspector



                                                                                                                         Washington,
                                                                                                                                     Inspector General



                                                                                                                         Washington, D.C.
                                                                                                                                     D-C. 20201
                                                                                                                                               General



                                                                                                                                          20201



                                                                       SEP       2008
                                                                       SEP 11 66 2008




         TO:                     Kerry Weems
                                 Acting Administrator
                                 Centers for
                                 Centers for Medicare &
                                                      & Medicaid Services


         FROM:                   Danel
                                 Daniel     L~vinsonL~vinson
                                        R. R.        ~ 12.~'/.~
                                                             12. '/~
                                 Inspector General


         SUBJECT:                Review
                                 Review of of Profitability       Analysis
                                              Profitability Analysis of    of New Orleans Hospitals (A-07-07-02733)


                      final report
         The attached final report provides
                                   provides the
                                             the results
                                                 results of
                                                          of our
                                                             our analysis
                                                                 analysis ofthe
                                                                           ofthe profitability trend for the five
         New  Orleans hospital
         New Orleans  hospitalgroups
                                 groups(testifying
                                          (testifynghospitals) that testified
                                                         hospitals)           at a U.S. House
                                                                      that testified            of House of ­
                                                                                         at a U.S.
         Representatives  hearng
         Representatives hearing  on August   1,2007.

         In that hearing,
                     hearng, offcials
                                  officialsofofthe the testifying
                                                           testifyinghospitals
                                                                           hospitals testified
                                                                                          testified that
                                                                                                     that their
                                                                                                           their hospitals
                                                                                                                    hospitals experienced
                                                                                                                                 experienced
         significant       post-Katrina
         signficant post-Katrna                 operating
                                operating losses, largely becauselosses,
                                                                  of
       largely because of the          increased
                                                                                                      the increased costs of costs
                                                                                                                             
     of providing
         hospital care care since
                               sincethe  theAugust
                                               August2005   2005hurricane.
                                                                     hurcane. The    The testifying hospitals requested additional
                                                                                            testifying hospitals       requested
         Federal      financial
         Federal financial           assistance,
                           assistance,                 including
                                       including additional            additional
                                                            grant fuds from the Departentgrant
                                                                                          of    funds from the Department of Health and
         Human Services, to use for the recovery of                       of the health care delivery system in the New Orleans
         area.

         InSeptember
         In September2007, the 2007,      of 
 U.S. House of Representatives Committee on Energy and Commerce
                               U.S. Housethe

         requested that the Office of Inspector
         requested that the Offce of               Inspector   General
                                                         General             (OIG)
                                                                 (OIG) perform         perform
                                                                               a profitability       a of

                                                                                               analysis profitability analysis of the
         testifying hospitals.

         testifyng      hospitals.

         This
         This    report,
              report,        theof first
                      the first    
     of two OIG reports,
                                                       reports, responds
                                                                responds to to this
                                                                               this congressional
                                                                                     congressional request.
                                                                                                     request. To
                                                                                                               To conduct our
         profitability
         profitability analysis, we examined the patient-related care margin, total margin, Medicare
         program margin,margin, and   andMedicaid
                                           Medicaidprogram
                                                       programmargin
                                                                 marginfor forthe
                                                                                thetestifying
                                                                                     testifyinghospitals-both
                                                                                                 hospitals-bäth individually
                                                                                                                 individually
         and collectively--urng
         and    collectively---duringananaudit    auditperiod
                                                         periodof
                                                                offiscal
                                                                   fiscal years
                                                                            years(FY)
                                                                                    (FY) 2002
                                                                                           2002 through
                                                                                                 through 2006.  Usingthis

                                                                                                          2006. Using  this
         timeframe enabled us to gain an understanding of the financial situation of the testifying
         timeframe       enabled      us to  gain an understanding    of  the  financial    situation  of the testifyg

         hospitals by examining profitability trends for several years before the hurricane, for the year of
         the hurricane
               hurcane (FY      (FY2005),
                                      2005),and
                                              and for
                                                   for the
                                                        the year after the
                                                            year after  thehurricane.
                                                                             hurcane.

         Our objective was to demonstrate the profitability trend for the five New Orleans
                                                                                    Orleans hospital
                                                                                            hospital groups
                                                                                                     groups
         that testified at
                        at the U.S. House of
                                          of Representatives Committee on Energy
                                                                            Energy and
                                                                                    and Commerce,
                                                                                        Commerce,
         Subcommittee on Oversight and Investigations,
                                            Investigations, hearing
                                                            hearing on
                                                                    on August
                                                                       August 1,2007.
                                                                               1,2007.

         Each of the individual testifyng
         Each of 
                          testifyinghospitals
                                                         hospitals had
                                                                   had aa significantly
                                                                           significantly different
                                                                                         different profitability
                                                                                                   profitability trend
                                                                                                                  trend over
                                                                                                                        over the
                                                                                                                             the
         audit
         audit    period.
               period.                a review of 
 is a review of the testifying
                                Theisfollowing
                       The following                                    testifying hospitals'
                                                                                    hospitals' cumulative
                                                                                                cumulativeresults.
                                                                                                            results.
Page 2 – Kerry Weems


   •   Patient-related care margin:

       o For FYs 2002 and 2003, the testifying hospitals had cumulative positive patient-
         related care margins.

       o For FYs 2004 through 2006, the testifying hospitals had cumulative negative patient-
         related care margins.

   •   Total margin:

       o For FYs 2002 and 2003, the testifying hospitals had cumulative positive total margins.

       o For FYs 2004 and 2005, the testifying hospitals had cumulative negative total
         margins.

       o For FY 2006, the testifying hospitals had a cumulative positive total margin and
         received additional funding from Business Interruption insurance payments and
         additional Federal funding for hurricane damage.

   •   Medicare program margin:

       o For FY 2002, the testifying hospitals had a cumulative positive Medicare program
         margin.

       o For FYs 2003 through 2006, the testifying hospitals had cumulative negative
         Medicare program margins.

   •   Medicaid program margin:

       o For FYs 2002 through 2006, the testifying hospitals had cumulative negative
         Medicaid program margins.

As this is an informational report, we have no recommendations.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov. Please
refer to report number A-07-07-02733 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF PROFITABILITY
  ANALYSIS OF NEW ORLEANS
         HOSPITALS




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-07-07-02733
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

On August 1, 2007, the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, held a hearing on post-Katrina health care in the
New Orleans region. In this hearing, officials of five hospital groups in the New Orleans region
(testifying hospitals) testified that their hospitals experienced significant post-Katrina operating
losses, largely because of the increased costs of providing hospital care since the August 2005
hurricane. The testifying hospitals requested additional Federal financial assistance, including
additional grant funds from the Department of Health and Human Services, to use for the
recovery of the health care delivery system in the New Orleans area.

In September 2007, the U.S. House of Representatives Committee on Energy and Commerce
requested that the Office of Inspector General (OIG) perform a profitability analysis of the
testifying hospitals.

This report, the first of two OIG reports, responds to this congressional request. To conduct our
profitability analysis, we examined the patient-related care margin, total margin, Medicare
program margin, and Medicaid program margin for the testifying hospitals—both individually
and collectively—during an audit period of fiscal years (FY) 2002 through 2006. Using this
timeframe enabled us to gain an understanding of the financial situation of the testifying
hospitals by examining profitability trends for several years before the hurricane, for the year of
the hurricane (FY 2005), and for the year after the hurricane. The second report will compare
the testifying hospitals to other hospitals in the New Orleans area, hospitals in a demographically
similar city, and hospitals in a geographically similar city.

OBJECTIVE

Our objective was to demonstrate the profitability trend for the five New Orleans hospital groups
that testified at the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, hearing on August 1, 2007.

SUMMARY OF HOSPITAL FINANCIAL ANALYSIS

Each of the individual testifying hospitals had a different profitability trend over the audit period.

The following is a review of the testifying hospitals’ cumulative results broken down into four
measures of profitability: patient-related care margin, total margin, Medicare program margin,
and Medicaid program margin.

   •   Patient-related care margin (profitability from patient care alone):

           o For FYs 2002 and 2003, the testifying hospitals had cumulative positive patient-
             related care margins.




                                                  i
           o For FYs 2004 through 2006, the testifying hospitals had cumulative negative
             patient-related care margins.

   •   Total margin (profitability from all sources of income):

           o For FYs 2002 and 2003, the testifying hospitals had cumulative positive total
             margins.

           o For FYs 2004 and 2005, the testifying hospitals had cumulative negative total
             margins.

           o For FY 2006, the testifying hospitals had a cumulative positive total margin,
             which included additional funding from Business Interruption insurance payments
             and additional Federal funding for hurricane damage.

   •   Medicare program margin (based on payments from Medicare):

           o For FY 2002, the testifying hospitals had a cumulative positive Medicare program
             margin.

           o For FYs 2003 through 2006, the testifying hospitals had cumulative negative
             Medicare program margins.

   •   Medicaid program margin (based on payments from Medicaid):

           o For FYs 2002 through 2006, the testifying hospitals had cumulative negative
             Medicaid program margins.

RECOMMENDATION

As this is an informational report, we have no recommendations.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

After receiving our draft report, the Centers for Medicare & Medicaid Services elected not to
comment.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Congressional Request...................................................................................1
              Testifying Hospitals .......................................................................................1
              Hospital Financial Data..................................................................................2
              Determination of Profitability and Financial Ratio Analysis ........................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................4
               Objective ........................................................................................................4
               Scope..............................................................................................................4
               Methodology ..................................................................................................4

SUMMARY FINANCIAL ANALYSES OF THE TESTIFYING HOSPITALS...........5

          PROFITABILITY RATIOS .....................................................................................6
               Patient-Related Care Margin..........................................................................6
               Total Margin ..................................................................................................8
               Medicare Program Margin.............................................................................9
               Medicaid Program Margin.............................................................................10

          RECOMMENDATION .............................................................................................10

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..............11

OTHER MATTER...............................................................................................................11

APPENDIXES

          A – INDIVIDUAL TESTIFYING HOSPITAL ANALYSES

          B – INDIVIDUAL TESTIFYING HOSPITAL MARGIN SUMMARIES




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Congressional Request

On August 1, 2007, the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, held a hearing on post-Katrina health care in the
New Orleans region. In this hearing, officials of five hospital groups in the New Orleans region
(testifying hospitals) testified that their hospitals experienced significant post-Katrina operating
losses, largely because of the increased costs of providing hospital care since the August 2005
hurricane. The testifying hospitals requested additional Federal financial assistance, including
additional grant funds from the Department of Health and Human Services, to use for the
recovery of the health care delivery system in the New Orleans area.

In September 2007, the U.S. House of Representatives Committee on Energy and Commerce
requested that the Office of Inspector General (OIG) perform a profitability analysis.

This report, the first of two OIG reports, responds to this congressional request. The second
report compares the testifying hospitals to other hospitals in New Orleans, hospitals in a
demographically similar city, and hospitals in a geographically similar city. 1

Testifying Hospitals

Officials from the testifying hospitals—East Jefferson General Hospital, Ochsner Health
System, 2 Touro Infirmary, Tulane University Hospital, and West Jefferson Medical Center—
testified that they were incurring extraordinary financial losses because of the weakening of the
region’s economy, which was still severely stressed during our audit period as a result of the
disaster. According to the hospitals’ testimony of August 1, 2007, the testifying hospitals
provide 95 percent of the hospital-based services in the New Orleans metropolitan area.

The testifying hospitals presented a financial picture comparing the period of January through
May 2005 to the period of January through May 2007. To gain an understanding of the financial
situation of the testifying hospitals, we expanded the timeframe to encompass the period of the
fiscal year (FY) ending 2002 through the FY ending 2006. 3

1
    “Review of Profitability Analysis of New Orleans Hospitals Compared With Peer Hospitals” (A-07-07-02734).
2
 Ochsner Health System included five facilities in the testimony. The Ochsner Foundation Medicare cost report
included expenses related both to the Ochsner Foundation and to the Ochsner Clinic, which was included separately
in the testimony. (However, on the cost report the Clinic’s revenues and expenditures were categorized and reported
as a nonreimbursable cost center.) The combination of two Ochsner facilities in the Medicare cost reports meant
that although the testimony dealt with nine hospitals, the cost reports—and, consequently, our analysis—contained
only eight.
3
 In this report, all year references are to FYs determined by the cost report period ending between January 1 and
December 31 of the particular year.



                                                          1
Hospital Financial Data

Typically, hospitals’ revenues are derived from (a) payments made for services to patients who
do not have health insurance (private-pay), (b) health insurance companies (third-party health
insurance), (c) Federal funds (including payments for Medicare and Medicaid), and (d) State
Medicaid funds.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
governments jointly fund and administer the Medicaid program. At the Federal level, CMS
administers the program, as it administers the Medicare program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Federal reimbursement for ongoing operations is based on cost reports, which contain financial
data for all revenue, not just Medicare and Medicaid. Federal regulations require providers to
submit, on an annual basis, cost report data based on the provider’s financial and statistical
records. This information must be accurate and in sufficient detail to support payments made for
services provided to beneficiaries. The data in the cost reports feed into the Healthcare Cost
Report Information System (HCRIS). Hospitals attest that the data are accurate and complete
when they submit their cost reports.

Each hospital (or other Medicare service provider) is required to file a Medicare cost report each
year. After acceptance of the cost report, the fiscal intermediary (FI) performs a tentative
settlement to ensure that the provider is reimbursed expeditiously. 4 The FI may perform a
detailed audit after the tentative settlement. If the FI does not perform a detailed audit, the FI
determines final settlement by performing a limited desk audit. After auditing the cost report,
the FI issues a notice of program reimbursement. As the final settlement document, this notice
shows whether payment is owed to the provider or to the Medicare program. The final
settlement incorporates any audit adjustments that the FI may have made to the filed Medicare
cost report.

Determination of Profitability and Financial Ratio Analysis

Profitability ratios serve as a measure of a hospital’s ability to achieve an excess of revenues
over expenditures or, in other words, to provide a return. For hospitals, the ability to provide a
return is important to secure the resources necessary to update property, plant, and equipment;
implement strategic plans; or make investments. Losses, on the other hand, threaten liquidity,
drain other investments, and may threaten the long-term viability of the organization. The

4
 Medicare FIs are private insurance companies that serve as the Federal Government’s agents in the administration
of the Medicare program, including the payment of claims.


                                                        2
profitability ratios reported here are the patient-related care margin, total margin, Medicare
program margin, and Medicaid program margin.

Patient-Related Care Margin

The patient-related care margin measures revenues and expenses related to the day-to-day
operations of the facility. In other words, it measures the profitability from patient care
operations alone. The revenues and expenses are for all payer types, and the data are obtained
from Worksheet G-3 of the Medicare cost report.

We calculated the patient-related care margin using the following formula:

Patient-Related Care Margin =

                Total net patient-related care revenues – Total patient-related care expenses
                                       Total net patient-related care revenues

Total Margin

The total margin measures profitability from all sources of income. The data are obtained from
Worksheet G-3 of the Medicare cost report.

We calculated the total margin using the following formula:

                               Total Margin = Total revenues 5 – Total expenses 6
                                                       Total revenues

Medicare Program Margin

The Medicare program margin has its basis in payments received from Medicare. 7 The expenses
relate to the expenditures for program services as determined from the Medicare cost report.

We calculated the Medicare program margin using the following formula:

            Medicare Program Margin = Total Medicare payments – Total Medicare expenses
                                                  Total Medicare payments



5
    We included any special Katrina-related payments received after Hurricane Katrina.
6
    Total expenses are patient-related care expenses and all other expenses.
7
 The payments are for all inpatient acute-care and outpatient services. The payments also include payments for any
subunits of the hospital, such as a rehabilitation unit, psychiatric unit, and skilled nursing facility, in addition to
payments received for items such as disproportionate share and graduate medical education. Medicare Part C
(Medicare Advantage) payments are not included.



                                                             3
Medicaid Program Margin

The Medicaid program margin has its basis in payments received from Medicaid. 8 The expenses
relate to the expenditures for program services as determined from the Medicaid cost report.

We calculated the Medicaid program margin using the following formula:

         Medicaid Program Margin = Total Medicaid payments – Total Medicaid expenses
                                                 Total Medicaid payments

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to demonstrate the profitability trend for the five New Orleans hospital groups
that testified at the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations hearing, on August 1, 2007.

Scope

We reviewed the testifying hospitals’ financial records for their FYs 2002 through 2006. Using
this timeframe enabled us to gain an understanding of the financial situation of the hospitals by
examining profitability trends for several years before the hurricane, the year of the hurricane
(FY 2005), and the year after the hurricane. We used the testifying hospitals’ latest available
Medicare and Medicaid cost reports, as of September 30, 2007, as the basis of our review.

We did not review internal controls because our objective did not require us to do so.

We performed our fieldwork from November through December 2007.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws and regulations;

    •    obtained FYs 2002 through 2006 HCRIS cost report data and used them to determine the
         testifying hospitals’ revenues and expenses;

    •    obtained FYs 2002 through 2006 HCRIS cost report data and used them to determine the
         testifying hospitals’ Medicare program payments and expenses;



8
 Louisiana had not audited the Medicaid data after FY 2002 for the testifying hospitals. Discussions with the
testifying hospitals revealed that the Medicaid data on the Medicare cost report were not always accurate or reliable.
Therefore, we obtained the Medicaid cost reports from the State.


                                                          4
   •   obtained FYs 2002 through 2006 Medicaid cost report data from the States and used the
       data to determine the testifying hospitals’ Medicaid program payments and expenses;

   •   used hard copies of Medicare cost reports if HCRIS data were unavailable;

   •   used audited financial statements for periods with apparent errors in the HCRIS data;

   •   reconciled specific HCRIS data to the appropriate cost report Worksheet;

   •   identified additional Federal funding sources;

   •   calculated a patient-related care margin for hospitals using patient-related care data
       reported by the testifying hospitals in their Medicare cost reports;

   •   calculated a total margin for hospitals using total expense and revenue data as reported by
       the testifying hospitals in their Medicare cost reports;

   •   calculated a Medicare program margin for testifying hospitals using total program
       payments in relation to program services expenses as reported by the testifying hospitals
       in their Medicare cost reports;

   •   calculated a Medicaid program margin for testifying hospitals using total program
       payments in relation to program services expenses as reported by the testifying hospitals
       in their Medicaid cost reports; and

   •   calculated each of these four margins on a cumulative basis, by summing the revenues,
       payments, and expenses by FY for all the testifying hospitals, and then by applying these
       sums to the formulas (explained in “Background”) for each of these four margins.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

       SUMMARY FINANCIAL ANALYSES OF THE TESTIFYING HOSPITALS

Each of the individual testifying hospitals had a different profitability trend over the audit period.
Margin analysis of the individual testifying hospital results appears in Appendix A.

The following is a review of the testifying hospitals’ cumulative results.

   •   Patient-related care margin:

           o For FYs 2002 and 2003, the testifying hospitals had cumulative positive patient-
             related care margins.


                                                  5
             o For FYs 2004 through 2006, the testifying hospitals had cumulative negative
               patient-related care margins.

    •   Total margin:

             o For FYs 2002 and 2003, the testifying hospitals had cumulative positive total
               margins.

             o For FYs 2004 and 2005, the testifying hospitals had cumulative negative total
               margins.

             o For FY 2006, the testifying hospitals had a cumulative positive total margin,
               which included additional funding from Business Interruption insurance payments
               and additional Federal funding for hurricane damage. 9

    •   Medicare program margin:

             o For FY 2002, the testifying hospitals had a cumulative positive Medicare program
               margin.

             o For FYs 2003 through 2006, the testifying hospitals had cumulative negative
               Medicare program margins.

    •   Medicaid program margin:

             o For FYs 2002 through 2006, the testifying hospitals had cumulative negative
               Medicaid program margins.

A yearly comparison of the profitability margins for each individual facility appears in
Appendix B.

PROFITABILITY RATIOS

Patient-Related Care Margin

The patient-related care margin measures revenues and expenses related to the day-to-day patient
care operations of the facility. The testifying hospitals experienced a cumulative positive
patient-related care margin before FY 2004. From FY 2004 forward, the testifying hospitals had
a negative cumulative patient-related care margin. See Graph 1.



9
 In the aftermath of the hurricane and under the provisions of section 6201 of the Deficit Reduction Act of 2005,
during FY 2006 the testifying hospitals received additional Federal funding of approximately $39.5 million in the
form of uncompensated care payments. In addition, several of the testifying hospitals received Business Interruption
and Physical Damage insurance payments totaling approximately $212.9 million and Federal Emergency
Management Agency (FEMA) payments totaling approximately $12.2 million.


                                                         6
Cumulative Trend

             Graph 1: Cumulative Patient-Related Care Margins, FYs 2002–2006
                           5%
                                  1.30%      2.04%
                           0%

                          -5%

                         -10%
                                                       -6.98%                   -13.40%
                         -15%

                         -20%

                                                                     -21.68%
                         -25%
                                   2002       2003          2004      2005       2006
                                                       Fiscal Year



Individual Performance

     •   Five of the eight testifying hospitals 10 had positive patient-related care margins for
         FY 2002.

     •   Three of the eight testifying hospitals had positive patient-related care margins for
         FY 2003.

     •   Two of the eight testifying hospitals had positive patient-related care margins for
         FY 2004.

     •   None of the eight testifying hospitals had positive patient-related care margins for
         FY 2005, the year of Hurricane Katrina.

     •   None of the seven testifying hospitals 11 had a positive patient-related care margin for
         FY 2006.




10
 Five testifying hospital groups represented nine hospitals. However, one of those groups, Ochsner Health System,
combined two of its hospitals on a single cost report. Thus, our report includes analyses of eight hospitals.
11
 The 2006 HCRIS data for one testifying hospital were incomplete, and therefore we did not use these data in our
analysis.



                                                        7
Total Margin

The testifying hospitals experienced cumulative positive total margins before FY 2004. For FY
2004 and FY 2005, the testifying hospitals had cumulative negative total margins. For FY 2006,
the testifying hospitals had a cumulative positive total margin, which included additional funding
from Business Interruption insurance payments and additional Federal funding.

Cumulative Trend

                    Graph 2: Cumulative Total Margins, FYs 2002–2006
                         6%
                                3.51%      4.28%
                         4%
                         2%
                                                                              3.20%
                         0%
                       -2%
                       -4%
                                               -3.79%
                       -6%
                       -8%
                       -10%
                       -12%
                                                                   -12.18%
                       -14%
                               2002     2003           2004      2005        2006
                                                   Fiscal Year




Individual Performance

   •   Six of the eight testifying hospitals had positive total margins for FY 2002.
   •   Five of the eight testifying hospitals had positive total margins for FY 2003.
   •   Three of the eight testifying hospitals had positive total margins for FY 2004.
   •   One of the eight testifying hospitals had a positive total margin for FY 2005.
   •   Four of the seven testifying hospitals had positive total margins for FY 2006.




                                                   8
Medicare Program Margin

The Medicare program margin has its basis in payments received from Medicare. 12 The
expenses relate to the expenditures for Medicare program services as determined from the
Medicare cost report. The testifying hospitals experienced a cumulative positive Medicare
program margin for FY 2002. For FY 2003 through FY 2006, the testifying hospitals had
cumulative negative Medicare program margins.

Cumulative Trend

               Graph 3: Cumulative Medicare Program Margins, FYs 2002–2006
                           5%

                                3.09%
                           0%
                                            -0.04%                             -7.14%
                          -5%

                         -10%
                                                       -7.29%
                         -15%

                                                                     -16.46%
                         -20%
                                   2002       2003         2004       2005      2006
                                                       Fiscal Year



Individual Performance

     •   Five of the eight testifying hospitals had positive Medicare program margins for
         FY 2002.

     •   Six of the eight testifying hospitals had positive Medicare program margins for FY 2003.

     •   Three of the eight testifying hospitals had positive Medicare program margins for
         FY 2004.

     •   One of the eight testifying hospitals had a positive Medicare program margin for
         FY 2005.

     •   Two of the seven testifying hospitals had positive Medicare program margins for
         FY 2006.




12
 The overall national Medicare margin for Medicare acute Inpatient Prospective Payment System hospitals, per the
Medicare Payment Advisory Commission analysis, was 2.4 percent in 2002, -1.3 percent in 2003, -3.0 percent in
2004, -3.0 percent in 2005, and -4.8 percent in 2006.


                                                       9
Medicaid Program Margin

The Medicaid program margin has its basis in payments received from Medicaid. The expenses
relate to the expenditures for Medicaid program services as determined from the Medicaid cost
report. The testifying hospitals experienced cumulative negative Medicaid program margins for
FY 2002 through FY 2006.

Cumulative Trend

             Graph 4: Cumulative Medicaid Program Margins, FYs 2002–2006
                       0%

                      -5%
                                                 -13.26%
                      -10%
                             -9.65%
                      -15%

                      -20%
                                       -19.01%                              -18.06%
                      -25%

                      -30%
                                                                  -32.57%
                      -35%
                                2002    2003        2004       2005         2006
                                                 Fiscal Year



Individual Performance

   •   Two of the eight testifying hospitals had positive Medicaid program margins for
       FY 2002.

   •   None of the eight testifying hospitals had positive Medicaid program margins for
       FY 2003.

   •   Two of the eight testifying hospitals had positive Medicaid program margins for
       FY 2004.

   •   One of the eight testifying hospitals had a positive Medicaid program margin for
       FY 2005.

   •   None of the seven testifying hospitals had positive Medicaid program margins for
       FY 2006.

The individual testifying hospital results for the Medicaid program margin analysis appear in
Appendix A.

RECOMMENDATION

As this is an informational report, we have no recommendations.


                                                 10
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

After receiving our draft report, CMS elected not to comment.

                                                OTHER MATTER

In the aftermath of Hurricane Katrina, the testifying hospitals received additional funding of
approximately $473.7 million, of which $264.6 million is included in this analysis. 13

The remaining $209.1 million was paid in 2007 or consisted of FEMA loans, which were not
included in this analysis and can be forgiven in 2009. These funds came from the combination
of several different sources:

       •    Medicaid Disproportionate Share Hospital program payments of $69.4 million in 2007,
       •    Wage Index grants of $29.2 million in 2007,
       •    FEMA payments of $6.5 million in 2007,
       •    FEMA disaster loans of $91.7 million 14 that are not included in our analysis, and
       •    Business Interruption insurance payments of $12.3 million in 2007.




13
  Included in the analysis are uncompensated care payments totaling approximately $39.5 million, Business
Interruption and Physical Damage insurance payments totaling approximately $212.9 million, and FEMA payments
of approximately $12.2 million.
14
     The loan amount was enough to cover the total margin loss in 2005 for East Jefferson General Hospital.


                                                           11
APPENDIXES
                                                                                                     APPENDIX A
                                                                                                       Page 1 of 17

                       INDIVIDUAL TESTIFYING HOSPITAL ANALYSES

East Jefferson General Hospital

For fiscal years (FY) 2002 through 2006, East Jefferson General Hospital 1 (East Jefferson)
reported a total of $1.43 billion in patient-related care expenditures and $1.35 billion in patient-
related care revenues. The patient-related care margin for East Jefferson ranged from
-19.87 percent to 2.45 percent during this period. The FY 2006 ratios do not reflect the receipt
of a Federal Emergency Management Agency (FEMA) Community Disaster Loan for
$61 million in FY 2006. While this is a loan and while the FY 2006 expenses include accrued
interest, this loan can be forgiven in 2009 (Graph A1.1).

         Graph A1.1: Patient-Related Care Margin—East Jefferson General Hospital
                             5%

                             0%
                                                 2.45%
                            -5%
                                    -4.54%                      -6.93%
                           -10%
                                                                                     -15.98%
                           -15%

                           -20%
                                                                           -19.87%
                           -25%
                                     2002        2003        2004        2005         2006
                                                          Fiscal Year




1
 East Jefferson is a community hospital located in Jefferson Parish. As a result of Hurricane Katrina, the facility
incurred some physical damage, but it was one of only three hospitals in the New Orleans metropolitan area to
remain open during and after the storm.
                                                                                        APPENDIX A
                                                                                          Page 2 of 17

Including other income and expenses in addition to the patient-related care totals, the total
margin for the hospital ranged from -11.52 percent to 1.09 percent (Graph A1.2).

                Graph A1.2: Total Margin—East Jefferson General Hospital
                        2%
                                                                           1.09%
                        0%
                                                        -1.38%
                       -2%
                                        -0.99%
                       -4%
                       -6%
                             -5.09%
                       -8%
                      -10%
                      -12%
                                                                 -11.52%
                      -14%
                              2002       2003       2004           2005        2006
                                                 Fiscal Year




For the review period, East Jefferson reported Medicare program costs totaling $457.7 million
and received payments of $377.5 million. These figures resulted in a Medicare program margin
ranging from -26.20 percent to -17.32 percent (Graph A1.3).

        Graph A1.3: Medicare Program Margin—East Jefferson General Hospital
                        0%

                       -5%

                      -10%

                      -15%

                      -20%
                             -17.32%   -19.08%   -20.03%
                      -25%
                                                                              -23.51%
                                                                 -26.20%
                      -30%
                               2002      2003       2004           2005        2006
                                                 Fiscal Year
                                                                                                      APPENDIX A
                                                                                                        Page 3 of 17

For the review period, East Jefferson reported Medicaid program costs totaling $93.2 million and
received payments of $56.5 million. These figures resulted in a Medicaid program margin
ranging from -167.49 percent to -17.24 percent (Graph A1.4).

         Graph A1.4: Medicaid Program Margin—East Jefferson General Hospital
                           0%
                          -20%
                                                                   -17.24%              -55.25%
                          -40%
                                  -26.36%
                          -60%
                                             -55.77%
                          -80%
                         -100%
                         -120%
                         -140%
                         -160%
                                                                                 -167.49%
                         -180%
                                   2002       2003          2004              2005          2006
                                                         Fiscal Year




Ochsner Baptist Medical Center

For FYs 2002 through 2005, Ochsner Baptist Medical Center2 (Ochsner Baptist) reported a total
of $1.03 billion in patient-related care expenditures and $959.7 million in patient-related care
revenues. 3 The patient-related care margin for Ochsner Baptist ranged from -52.95 percent to
12.90 percent during this period (Graph A2.1).

        Graph A2.1: Patient-Related Care Margin—Ochsner Baptist Medical Center
                         20%
                                   9.57%               12.90%
                         10%
                          0%
                         -10%
                                                                         -20.94%
                         -20%
                         -30%
                         -40%
                                                                                            -52.95%
                         -50%
                         -60%
                                    2002          2003                 2004             2005
                                                         Fiscal Year




2
 Previously known as Memorial Medical Center. In October 2006, Ochsner purchased this community hospital
from Tenet Healthcare Corporation.
3
 Because the 2006 Healthcare Cost Report Information System (HCRIS) data were incomplete, we did not use it in
our analysis of Ochsner Baptist.
                                                                                          APPENDIX A
                                                                                            Page 4 of 17

Including other income and expenses in addition to the patient-related care totals, the total
margin for Ochsner Baptist ranged from -50.70 percent to 16.25 percent (Graph A2.2).

                Graph A2.2: Total Margin—Ochsner Baptist Medical Center
                       20%
                                                16.25%
                       10%
                               12.19%
                        0%
                      -10%
                                                                   -19.20%
                      -20%
                      -30%
                      -40%
                                                                                -50.70%
                      -50%
                      -60%
                                2002        2003                 2004          2005
                                                   Fiscal Year




For the review period, Ochsner Baptist reported Medicare program costs totaling $291.4 million
and received payments of $274.2 million. These figures resulted in a Medicare program margin
ranging from -47.95 percent to 9.45 percent (Graph A2.3).

        Graph A2.3: Medicare Program Margin—Ochsner Baptist Medical Center
                       20%
                               9.45%
                       10%
                                               1.15%
                        0%
                      -10%
                                                                   -18.10%
                      -20%
                      -30%
                      -40%
                      -50%
                                                                             -47.95%
                      -60%
                                2002        2003                 2004          2005
                                                   Fiscal Year
                                                                                                         APPENDIX A
                                                                                                           Page 5 of 17

For the review period, Ochsner Baptist reported Medicaid program costs totaling $84.5 million
and received payments of $61.4 million. These figures resulted in a Medicaid program margin
ranging from -65.35 percent to -24.07 percent (Graph A2.4).

         Graph A2.4: Medicaid Program Margin—Ochsner Baptist Medical Center
                           0%

                         -10%

                         -20%

                         -30%
                                  -24.07%
                         -40%
                                                -38.16%            -39.43%
                         -50%
                                                                                         -65.35%
                         -60%

                         -70%
                                    2002             2003                 2004                2005
                                                            Fiscal Year




Ochsner Foundation

For FYs 2002 through 2006, the Ochsner Foundation 4 reported a total of $1.92 billion in patient-
related care expenditures and $1.85 billion in patient-related care revenues. The patient-related
care margin for the Ochsner Foundation ranged from -11.04 percent to -1.01 percent during this
period (Graph A3.1).

               Graph A3.1: Patient-Related Care Margin—Ochsner Foundation
                           0%

                          -2%
                                  -1.01%     -1.25%               -2.69%
                                                                                                -1.45%
                          -4%

                          -6%

                          -8%

                         -10%
                                                                                    -11.04%
                         -12%
                                  2002        2003             2004              2005          2006
                                                            Fiscal Year




4
 The Ochsner Foundation was one of only three hospitals in the New Orleans metropolitan area to remain open
during and after Hurricane Katrina.
                                                                                   APPENDIX A
                                                                                     Page 6 of 17

Including other income (such as investment income, rental income, and cafeteria proceeds) and
expenses in addition to the patient-related care totals, the total margin for the Ochsner
Foundation ranged from -6.13 percent to 4.37 percent (Graph A3.2).

                     Graph A3.2: Total Margin—Ochsner Foundation
                     6%
                                                                      4.37%
                     4%
                                      2.07%     1.84%
                     2%

                     0%

                     -2%
                            -0.57%
                     -4%

                     -6%
                                                            -6.13%
                     -8%
                            2002      2003       2004        2005         2006
                                              Fiscal Year




For the review period, the Ochsner Foundation reported Medicare program costs totaling
$362.2 million and received payments of $343.6 million. These figures resulted in a Medicare
program margin ranging from -11.83 percent to 1.49 percent (Graph A3.3).

              Graph A3.3: Medicare Program Margin—Ochsner Foundation
                      4%
                                      1.49%
                      2%
                      0%
                      -2%
                                                 -5.97%                   -4.99%
                      -4%
                      -6%
                            -5.12%
                      -8%
                     -10%
                     -12%
                                                            -11.83%
                     -14%
                             2002     2003       2004        2005         2006
                                              Fiscal Year
                                                                                           APPENDIX A
                                                                                             Page 7 of 17

For the review period, the Ochsner Foundation reported Medicaid program costs totaling
$152.0 million and received payments of $146.9 million. These figures resulted in a Medicaid
program margin ranging from -9.89 percent to 2.54 percent (Graph A3.4).

                Graph A3.4: Medicaid Program Margin—Ochsner Foundation
                          4%
                                                                       2.54%
                          2%
                          0%
                                -2.60%
                         -2%
                         -4%
                                                         -3.54%                -3.27%
                         -6%
                         -8%
                        -10%
                                             -9.89%
                        -12%
                                 2002         2003       2004       2005       2006
                                                      Fiscal Year




Ochsner Kenner Medical Center

For FYs 2002 through 2006, Ochsner Kenner Medical Center 5 (Ochsner Kenner) reported a total
of $316.6 million in patient-related care expenditures and $293.1 million in patient-related care
revenues. The patient-related care margin for Ochsner Kenner ranged from -31.60 percent to
15.21 percent during this period (Graph A4.1).

       Graph A4.1: Patient-Related Care Margin—Ochsner Kenner Medical Center
                         20%
                                    15.21%
                         10%

                         0%

                        -10%
                                             -3.07%                              -3.57%
                        -20%

                        -30%
                                                      -29.69%       -31.60%
                        -40%
                                 2002         2003       2004       2005        2006
                                                      Fiscal Year




5
 Previously known as Kenner Regional Medical Center. In October 2006, Ochsner purchased this community
hospital from Tenet Healthcare Corporation.
                                                                                         APPENDIX A
                                                                                           Page 8 of 17

Including other income and expenses in addition to the patient-related care totals, the total
margin for Ochsner Kenner ranged from -31.05 percent to 16.21 percent (Graph A4.2).

               Graph A4.2: Total Margin—Ochsner Kenner Medical Center
                       20%
                                  16.21%
                       10%

                        0%
                                      -1.99%
                      -10%
                                                                                -2.98%
                      -20%

                      -30%
                                                       -29.32%       -31.05%
                      -40%
                               2002        2003           2004        2005       2006
                                                       Fiscal Year




For the review period, Ochsner Kenner reported Medicare program costs totaling $92.8 million
and received payments of $91.6 million. These figures resulted in a Medicare program margin
ranging from -28.45 percent to 22.55 percent (Graph A4.3).

        Graph A4.3: Medicare Program Margin—Ochsner Kenner Medical Center
                       30%
                                 22.55%
                       20%

                       10%
                                               2.27%
                        0%

                      -10%
                                                  -11.03%                      -24.23%
                      -20%

                      -30%
                                                                     -28.45%
                      -40%
                              2002         2003           2004        2005       2006
                                                       Fiscal Year
                                                                                                 APPENDIX A
                                                                                                   Page 9 of 17

For the review period, Ochsner Kenner reported Medicaid program costs totaling $43.5 million
and received payments of $35.1 million. These figures resulted in a Medicaid program margin
ranging from -35.19 percent to -18.53 percent (Graph A4.4).

         Graph A4.4: Medicaid Program Margin—Ochsner Kenner Medical Center
                          0%
                         -5%
                        -10%
                                                          -18.80%                      -18.53%
                        -15%
                        -20%
                        -25%
                                -24.72%      -23.33%
                        -30%
                        -35%
                                                                           -35.19%
                        -40%
                                 2002         2003          2004          2005          2006
                                                         Fiscal Year



Ochsner West Bank Medical Center

For FYs 2002 through 2006, Ochsner West Bank Medical Center 6 (Ochsner West Bank) reported a
total of $406.5 million in patient-related care expenditures and $368.6 million in patient-related
care revenues. The patient-related care margin for Ochsner West Bank ranged from -43.43 percent
to 13.00 percent during this period (Graph A5.1).

     Graph A5.1: Patient-Related Care Margin—Ochsner West Bank Medical Center
                         20%
                                    13.00%
                         10%
                                                -0.94%
                          0%

                        -10%
                                                                -12.37%
                        -20%
                                                                                       -29.03%
                        -30%

                        -40%
                                                                             -43.43%
                        -50%
                                 2002         2003          2004          2005          2006
                                                         Fiscal Year




6
 Previously known as Meadowcrest Hospital. In October 2006, Ochsner purchased this community hospital from
Tenet Healthcare Corporation.
                                                                                         APPENDIX A
                                                                                          Page 10 of 17

Including other income and expenses in addition to the patient-related care totals, the total
margin for Ochsner West Bank ranged from -42.76 percent to 17.28 percent (Graph A5.2).

             Graph A5.2: Total Margin—Ochsner West Bank Medical Center
                       30%
                             17.28%
                       20%
                                        3.46%
                       10%
                       0%
                      -10%
                                                -11.75%
                      -20%
                      -30%
                                                                               -28.87%
                      -40%
                                                                    -42.76%
                      -50%
                              2002      2003          2004       2005          2006
                                                   Fiscal Year




For the review period, Ochsner West Bank reported Medicare program costs totaling
$79.9 million and received payments of $76.0 million. These figures resulted in a Medicare
program margin ranging from -44.38 percent to 19.29 percent (Graph A5.3).

      Graph A5.3: Medicare Program Margin—Ochsner West Bank Medical Center
                       30%
                             19.29%
                       20%
                                        7.92%
                       10%
                       0%
                      -10%
                                                 -9.54%
                      -20%
                      -30%
                                                                 -44.38%
                      -40%
                                                                              -39.58%
                      -50%
                              2002      2003          2004       2005          2006
                                                   Fiscal Year
                                                                                                APPENDIX A
                                                                                                 Page 11 of 17

For the review period, Ochsner West Bank reported Medicaid program costs totaling
$83.3 million and received payments of $54.3 million. These figures resulted in a Medicaid
program margin ranging from -95.84 percent to -22.70 percent (Graph A5.4).

       Graph A5.4: Medicaid Program Margin—Ochsner West Bank Medical Center
                            0%

                          -20%
                                  -22.70%
                          -40%
                                               -35.10%
                          -60%
                                                             -54.66%
                          -80%
                                                                          -82.17%
                         -100%
                                                                                    -95.84%
                         -120%
                                    2002        2003           2004         2005     2006
                                                            Fiscal Year




Touro Infirmary

For FYs 2002 through 2006, Touro Infirmary (Touro) 7 reported a total of $773.7 million in
patient-related care expenditures and $720.2 million in patient-related care revenues. 8 The
patient-related care margin for Touro ranged from -21.26 percent to 7.98 percent during this
period (Graph A6.1).

                  Graph A6.1: Patient-Related Care Margin—Touro Infirmary
                          10%
                                                                  7.98%
                           5%
                                       1.29%
                           0%

                          -5%
                                                   -6.86%
                         -10%

                         -15%
                                                                                    -21.26%
                         -20%
                                                                          -19.59%
                         -25%
                                   2002         2003          2004         2005      2006
                                                         Fiscal Year




7
 Touro temporarily closed on September 1, 2005, and reopened on September 28, 2005. Touro was the first hospital
to reopen in Orleans Parish after the hurricane and was the only adult acute-care hospital in operation in New
Orleans for 5 months following the storm.
8
 For FYs 2002 and 2005, we developed patient-related care and total margin calculations using figures from the
audited financial statements because of an apparent error in HCRIS data.
                                                                                       APPENDIX A
                                                                                        Page 12 of 17

Including other income and expenses in addition to the patient-related care totals, the total
margin for the hospital ranged from -7.61 percent to 9.37 percent (Graph A6.2).

                        Graph A6.2: Total Margin—Touro Infirmary
                       12%
                                                  7.67%                       9.37%
                       10%
                        8%
                        6%
                              2.20%
                        4%
                        2%
                        0%
                       -2%
                                       -1.58%
                       -4%
                       -6%
                                                                     -7.61%
                       -8%
                      -10%
                              2002       2003      2004       2005             2006
                                                Fiscal Year




For the review period, Touro reported Medicare program costs totaling $218.9 million and
received payments of $227.6 million. These figures resulted in a Medicare program margin
ranging from -11.40 percent to 18.74 percent (Graph A6.3).

                 Graph A6.3: Medicare Program Margin—Touro Infirmary
                       25%
                                                                              18.74%
                       20%
                       15%
                              6.22%
                       10%
                                                  0.22%
                        5%
                        0%
                       -5%
                                       -1.55%
                      -10%
                                                               -11.40%
                      -15%
                              2002       2003      2004       2005             2006
                                                Fiscal Year
                                                                                                    APPENDIX A
                                                                                                     Page 13 of 17

For the review period, Touro reported Medicaid program costs totaling $147.5 million and
received payments of $147.7 million. These figures resulted in a Medicaid program margin
ranging from -5.13 percent to 6.73 percent (Graph A6.4).

                    Graph A6.4: Medicaid Program Margin—Touro Infirmary
                           8%
                                                                 6.73%
                           6%
                                  3.95%
                           4%

                           2%

                           0%

                          -2%
                                                                          -2.27%         -4.38%
                          -4%
                                                   -5.13%
                          -6%
                                   2002        2003          2004          2005          2006
                                                          Fiscal Year




Tulane University Hospital

For FYs 2002 through 2006, Tulane University Hospital (Tulane) 9 reported a total of
$1.26 billion in patient-related care expenditures and $1.21 billion in patient-related care
revenues. The patient-related care margin for Tulane ranged from -27.40 percent to 5.66 percent
during this period (Graph A7.1).

            Graph A7.1: Patient-Related Care Margin—Tulane University Hospital

                            10%
                                    1.80%         5.66%
                             5%
                                                                  2.52%
                             0%
                            -5%
                           -10%
                                                                               -13.29%
                           -15%
                           -20%
                                                                                         -27.40%
                           -25%
                           -30%
                                     2002       2003          2004          2005         2006
                                                            Fiscal Year




Including other income and expenses in addition to the patient-related care totals, the total
margin for Tulane ranged from -0.82 percent to 12.32 percent (Graph A7.2).

9
 Tulane’s downtown campus was completely evacuated because of the flooding following Hurricane Katrina. On
February 15, 2006, after being closed for almost 6 months, Tulane reopened its emergency room, several operating
rooms, some of its beds, an adult and pediatric intensive care unit, a pharmacy, and several cardiology laboratories.
                                                                                   APPENDIX A
                                                                                    Page 14 of 17


                 Graph A7.2: Total Margin—Tulane University Hospital
                     14%
                                                                       12.32%
                     12%
                     10%
                                     7.08%
                      8%
                      6%
                           3.38%                           3.93%
                      4%
                      2%
                      0%
                                                   -0.82%
                     -2%
                             2002     2003      2004           2005         2006
                                             Fiscal Year




For the review period, Tulane reported Medicare program costs totaling $249.5 million and
received payments of $278.8 million. These figures resulted in a Medicare program margin
ranging from 0.29 percent to 15.32 percent (Graph A7.3).

          Graph A7.3: Medicare Program Margin—Tulane University Hospital
                     18%
                     16%
                                              13.27%
                     14%
                           15.32%
                     12%
                                    14.08%
                     10%
                      8%
                      6%
                                                                   3.86%
                      4%
                                                                           0.29%
                      2%
                      0%
                             2002     2003      2004          2005          2006
                                             Fiscal Year
                                                                                                   APPENDIX A
                                                                                                    Page 15 of 17

For the review period, Tulane reported Medicaid program costs totaling $217.3 million and
received payments of $207.6 million. These figures resulted in a Medicaid program margin
ranging from -25.85 percent to 10.10 percent (Graph A7.4).

             Graph A7.4: Medicaid Program Margin—Tulane University Hospital
                           15.00%
                                                                10.10%
                           10.00%
                                         4.14%
                            5.00%
                            0.00%
                           -5.00%
                                                 -2.29%                             -12.17%
                          -10.00%
                          -15.00%
                          -20.00%
                          -25.00%
                                                                          -25.85%
                          -30.00%
                                      2002        2003       2004        2005        2006
                                                          Fiscal Year




West Jefferson Medical Center

For FYs 2002 through 2006, West Jefferson Medical Center (West Jefferson) 10 reported a total
of $964.9 million in patient-related care expenditures and $846.9 million in patient-related care
revenues. 11 The patient-related care margin for West Jefferson ranged from -29.81 percent to
-2.43 percent during this period. The FY 2006 ratios do not reflect the receipt of a FEMA




10
 West Jefferson is a community hospital located 10 miles from downtown New Orleans. It was one of only three
hospitals in the New Orleans metropolitan area to remain open during and after Hurricane Katrina.
11
  For FY 2003, we calculated patient-related care and total margins using figures from the audited financial
statements because of an apparent error in the HCRIS data.
                                                                                      APPENDIX A
                                                                                       Page 16 of 17

Community Disaster Loan for $30.7 million in FY 2006. While this is a loan and the FY 2006
expenses include accrued interest, this loan can be forgiven in 2009 (Graph A8.1).

        Graph A8.1: Patient-Related Care Margin—West Jefferson Medical Center
                        0%

                       -5%
                                           -2.43%
                      -10%
                                 -11.73%                   -11.05%
                      -15%

                      -20%
                                                                            -15.82%
                      -25%

                      -30%
                                                                  -29.81%
                      -35%
                              2002          2003       2004          2005    2006
                                                    Fiscal Year




Including other income and expenses in addition to the patient-related care totals, the total
margin for the hospital ranged from -15.90 percent to 3.01 percent (Graph A8.2).

                Graph A8.2: Total Margin—West Jefferson Medical Center
                        5%
                              0.35%                     1.82%
                                           3.01%
                        0%

                       -5%
                                                                             -4.10%
                      -10%

                      -15%
                                                                  -15.90%
                      -20%
                              2002          2003       2004          2005    2006
                                                    Fiscal Year
                                                                                    APPENDIX A
                                                                                     Page 17 of 17

For the review period, West Jefferson reported Medicare program costs totaling $227.2 million
and received payments of $215.6 million. These figures resulted in a Medicare program margin
ranging from -16.68 percent to 2.13 percent (Graph A8.3).

        Graph A8.3: Medicare Program Margin—West Jefferson Medical Center
                      5%
                                       2.13%
                                                 0.13%
                      0%

                      -5%
                            -4.95%
                                                              -6.69%
                     -10%

                     -15%

                                                                          -16.68%
                     -20%
                             2002       2003       2004         2005        2006
                                                Fiscal Year




For the review period, West Jefferson reported Medicaid program costs totaling $154.7 million
and received payments of $116.3 million. These figures resulted in a Medicaid program margin
ranging from -44.54 percent to -20.32 percent (Graph A8.4).

        Graph A8.4: Medicaid Program Margin—West Jefferson Medical Center
                       0%
                      -5%
                     -10%
                     -15%
                                                                          -20.32%
                     -20%
                     -25%
                                                                -22.58%
                     -30%
                     -35%
                            -30.09%
                     -40%
                                      -39.52%
                     -45%
                                                   -44.54%
                     -50%
                             2002       2003       2004         2005        2006
                                                Fiscal Year
                                                                                   APPENDIX B
                                                                                     Page 1 of 2


            INDIVIDUAL TESTIFYING HOSPITAL MARGIN SUMMARIES

The patient-related care margin and total margin tables below present yearly profitability
margins in percentages and the profit/loss in dollars for each individual facility.

                           Patient-Related Care Margin
    Facility    FY 2002      FY 2003       FY 2004      FY 2005                     FY 2006
  East           -4.54%        2.45%         -6.93       -19.87%                     -15.98%
  Jefferson  ($11,637,653) $6,607,704 ($18,125,091) ($49,339,097)                 ($43,941,295)
  Ochsner         9.57%      12.90%        -20.94%       -52.95%
                                                                                       N/A
  Baptist     $25,836,518 $33,378,047 ($66,708,164) ($59,546,625)
  Ochsner        -1.01%       -1.25%        -2.69%       -11.04%                      -1.45%
  Foundation ($3,227,280) ($4,527,173) ($10,156,444) ($40,065,970)                 ($6,276,304)
  Ochsner        15.21%       -3.07%       -29.69%       -31.60%                      -3.57%
  Kenner      $10,572,161 ($2,476,511) ($13,998,788) ($16,014,774)                 ($1,614,730)
  Ochsner        13.00%       -0.94%       -12.37%       -43.43%                     -29.03%
  West Bank   $10,264,817 ($1,063,422) ($9,177,904) ($24,930,120)                 ($12,916,671)
                  1.29%       -6.86%         7.98%       -19.59%                     -21.26%
  Touro
               $1,818,019 ($9,344,500) $12,534,733 ($26,022,730)                  ($32,497,754)
                  1.80%        5.66%         2.52%       -13.29%                     -27.40%
  Tulane
               $4,535,307  $15,631,108    $6,917,902 ($30,012,380)                ($49,137,596)
  West          -11.73%       -2.43%       -11.05%       -29.81%                     -15.82%
  Jefferson  ($18,168,416) ($4,146,485) ($18,137,425) ($44,809,658)               ($32,718,237)
  Cumulative     1.30%        2.04%         -6.98%      -21.68%                      -13.40%

                                    Total Margin
    Facility    FY 2002      FY 2003        FY 2004                FY 2005       FY 2006
  East           -5.09%       -0.99%          -1.38                 -11.52%         1.09%
  Jefferson  ($14,079,417) ($2,817,650) ($3,796,776)             ($30,750,014) $3,498,773
  Ochsner        12.19%      16.25%         -19.20%                 -50.70%
                                                                                     N/A
  Baptist     $33,950,495 $43,716,429 ($62,040,694)              ($57,868,266)
  Ochsner        -0.57%        2.07%          1.84%                  -6.13%         4.37%
  Foundation ($1,814,052) $7,752,140       $7,260,167            ($23,264,742) $20,065,880
  Ochsner        16.21%       -1.99%        -29.32%                 -31.05%        -2.98%
  Kenner      $11,405,742 ($1,618,970) ($13,862,865)             ($15,804,579) ($1,353,265)
  Ochsner        17.28%        3.46%        -11.75%                 -42.76%       -28.87%
  West Bank   $14,355,100   $4,107,326 ($8,764,272)              ($24,662,272) ($12,861,381)
                   2.20       -1.58%          7.67%                   -7.61         9.37%
  Touro
               $3,277,722 ($2,260,072) $13,258,040               ($11,658,988) $18,939,555
                  3.38%        7.08%         -0.82%                   3.93%        12.32%
  Tulane
               $8,641,117  $19,857,453 ($2,301,535)               $11,214,759   $32,106,959
  West            0.35%         3.01          1.82%                 -15.90%        -4.10%
  Jefferson     $604,808    $5,577,104     $3,526,279            ($28,044,286) ($9,887,352)
  Cumulative     3.51%        4.28%          -3.79%                -12.18%         3.20%
                                                                                 APPENDIX B
                                                                                   Page 2 of 2
The Medicare program margin and Medicaid program margin tables below present yearly
profitability margins in percentages and the difference between total program payments and total
program expenses.
                                   Medicare Program Margin
   Facility         FY 2002         FY 2003          FY 2004         FY 2005       FY 2006
 East               -17.32%         -19.08%          -20.03%         -26.20%       -23.51%
 Jefferson       ($12,399,476) ($14,435,253) ($16,732,411) ($20,488,580) ($16,112,675)
 Ochsner              9.45%           1.15%          -18.10%         -47.95%
                                                                                      N/A
 Baptist           $8,030,904       $934,289      ($15,544,987) ($10,598,871)
 Ochsner             -5.12%           1.49%           -5.97%         -11.83%        -4.99%
 Foundation ($2,737,810)            $979,250       ($4,304,425) ($8,549,904) ($3,988,335)
 Ochsner             22.55%           2.27%          -11.03%         -28.45%       -24.23%
 Kenner            $5,748,348       $629,584       ($1,879,838) ($3,573,788) ($2,128,809)
 Ochsner             19.29%           7.92%           -9.54%         -44.38%       -39.58%
 West Bank         $3,422,668      $1,883,747      ($1,563,943) ($4,598,956) ($3,042,153)
                      6.22%          -1.55%            0.22%         -11.40%        18.74%
 Touro
                   $2,723,786      ($670,876)        $100,244      ($4,262,607) $10,875,787
                     15.32%          14.08%           13.27%           3.86%         0.29%
 Tulane
                   $9,287,808      $9,580,601       $8,555,340      $1,798,135     $113,783
 West                -4.95%           2.13%            0.13%          -6.69%       -16.68%
 Jefferson        ($1,866,295)      $921,016         $58,141       ($2,912,142) ($7,737,837)
 Cumulative          3.09%           -0.04%           -7.29%         -16.46%        -7.14%

                                 Medicaid Program Margin
     Facility   FY 2002           FY 2003       FY 2004             FY 2005       FY 2006
   East         -26.36%           -55.77%       -17.24%            -167.49%       -55.25%
   Jefferson  ($2,327,177)      ($5,582,973) ($2,125,639)       ($18,819,813)   ($7,791,408)
   Ochsner      -24.07%           -38.16%       -39.43%             -65.35%
                                                                                    N/A
   Baptist    ($2,948,215)      ($4,099,155) ($9,974,622)        ($6,077,238)
   Ochsner       -2.60%            -9.89%        -3.54%               2.54%        -3.27%
   Foundation ($1,160,540)      ($2,878,110)   ($936,957)          $615,415      ($733,324)
   Ochsner      -24.72%           -23.33%       -18.80%             -35.19%       -18.53%
   Kenner     ($1,520,312)      ($2,301,794) ($1,439,818)        ($2,277,768)    ($911,592)
   Ochsner      -22.70%           -35.10%       -54.66%             -82.17%       -95.84%
   West Bank  ($2,342,098)      ($5,597,097) ($6,176,531)        ($7,358,753)   ($7,473,044)
                  3.95%            -5.13%         6.73%              -2.27%        -4.38%
   Touro
                $987,379         ($847,167)   $2,496,532          ($657,683)    ($1,757,564)
                  4.14%            -2.29%        10.10%             -25.85%       -12.17%
   Tulane
               $1,291,706       ($1,130,141) $4,718,956          ($9,082,535)   ($5,492,537)
   West         -30.09%           -39.52%       -44.54%             -22.58%       -20.32%
   Jefferson  ($7,862,436)      ($9,723,467) ($12,529,846)       ($7,176,040)   ($1,148,206)
   Cumulative    -9.65%           -19.01%       -13.26%             -32.57%       -18.06%
